<html>
<title> - S. 1898 AND H.R. 1560</title>
<body><pre>[Senate Hearing 112-635]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-635

                         S. 1898 AND H.R. 1560

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

S. 1898, A BILL TO PROVIDE FOR THE CONVEYANCE OF CERTAIN PROPERTY FROM 
                   THE UNITED STATES TO THE MANIILAQ 
                ASSOCIATION LOCATED IN KOTZEBUE, ALASKA

         H.R. 1560, A BILL TO AMEND THE YSLETA DEL SUR PUEBLO 
           AND ALABAMA AND COUSHATTA INDIAN TRIBES OF TEXAS 
 RESTORATION ACT TO ALLOW THE YSLETA DEL SUR PUEBLO TRIBE TO DETERMINE 
        BLOOD QUANTUM REQUIREMENTS FOR MEMBERSHIP IN THAT TRIBE

                               __________

                             MARCH 22, 2012

                               __________

         Printed for the use of the Committee on Indian Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                  U.S. GOVERNMENT PRINTING OFFICE

76-221 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2012...................................     1
Statement of Senator Akaka.......................................     1
Statement of Senator Murkowski...................................     1
Statement of Senator Udall.......................................     9

                               Witnesses

Gillette, Jodi, Deputy Assistant Secretary for Indian Affairs, 
  U.S. Department of the Interior................................     3
    Prepared statement...........................................     3
Hansen, Paul, Deputy Administrator, Maniilaq Health Center.......    12
    Prepared statement...........................................    13
Hisa, Hon. Carlos, Lieutenant Governor, Ysleta Del Sur Pueblo; 
  accompanied by Janette Hernandez, Tribal Member................    14
    Prepared statement...........................................    15
McSwain, Robert, Deputy Director for Management Operations, 
  Indian Health Service, U.S. Department of Health and Human 
  Services.......................................................     4
    Prepared statement...........................................     5

 
                         S. 1898 AND H.R. 1560

                              ----------                              


                        THURSDAY, MARCH 22, 2012


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. The Committee will come to order.
    Aloha and welcome to all of you here to this hearing. 
Today, the Committee will be considering two pieces of 
legislation that have been referred to this Committee for 
action.
    The first one that we will be considering is S. 1898, which 
was introduced by my good friend and colleague Senator 
Murkowski and provides for the conveyance of property from the 
United States to the Maniilaq Association in Alaska. The House 
companion bill, H.R. 443, has been passed by the House.
    The second bill we will be considering is H.R. 1560, which 
amends the Ysleta del Sur Pueblo settlement to allow the Tribe 
to determine its own membership requirements. This bill also 
has been passed by the House.
    Today, we will be hearing from the Department of the 
Interior and the Indian Health Service to receive the 
Administration's views on these bills. We will also hear from 
the affected Tribes to learn how these bills will impact our 
members back home and, of course, are delighted to hear from 
our member from Alaska.
    I am pleased to hold this hearing so that we can begin the 
process of moving both bills through the Senate. The record for 
today's hearing for will remain open for two weeks. So, I 
encourage any interested parties to submit written testimony 
for the record.
    And now I would like to call on Senator Murkowski for any 
opening statement she may have.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman, and thank you 
for scheduling this hearing today and for an opportunity to 
bring up a bill that I have introduced, S. 1898. I appreciate 
the Committee considering this issue before us and thank the 
Administration witnesses that are here to not only speak to the 
merits of this bill, but also thank you for what you do in 
working with us on the issues that affect so many of our Alaska 
Native constituents, not only with the healthcare issues that 
we deal with but so many of the other concerns that we have. I 
appreciate that.
    The bill that I have introduced, Mr. Chairman, is a 
critical tool that I believe will help improve the delivery of 
health services to the residents of rural northwest Alaska. It 
is a pretty straightforward approach to assist Maniilaq in 
expanding and improving their current healthcare services. As 
you know, the House has already passed an equivalent version of 
the bill. I note that it passed by a pretty remarkable margin, 
407 to 4. So I do not know what the objections of the four were 
but it is important that it did receive considerable support 
there.
    I do agree with Congressman Young when he said that this 
bill will do more than just transfer land. He was spot on in 
pinpointing the significance of this bill as one that will 
allow Maniilaq the opportunity to expand and essentially to 
improve the health and well-being of all Alaska Natives who 
live up in that northwestern region.
    The Maniilaq Association, for those who are not familiar 
with it, provides health, social and Tribal services to 
residents of 12 villages that are located in the Northwest 
Arctic Borough, and this bill will promote the much needed 
growth and expansion of a well-established and a successful, a 
very successful, rural Native healthcare provider.
    The witness who is joining us today will be the first up on 
Panel II, Mr. Paul Hansen, who is the Special Projects 
Coordinator and I will welcome and acknowledge Paul's presence 
here before the Committee. I am going to be dashing downstairs 
and going and testifying on another energy bill that I have and 
then I will try to come back up here. But if I do not get back 
up before the Second Panel, I would like to just briefly, 
again, welcome Paul, thank him for his testimony.
    Many who know him know that he is not only the Deputy 
Administrator for Maniilaq Health Center but he is also a long-
term competitive dog musher. And for those who follow the great 
races in Alaska, whether it is the Yukon Quest or the Iditarod, 
which we just completed, we take great pride in those who are 
engaged in this incredible sport and activity. He and his wife, 
Margaret, routinely win sprint races and his wife is a long-
time school board member and elected Tribal council member of 
the Kotzebue IRA. They are both very active community members 
and we appreciate a great deal that Paul has traveled all the 
way from Kotzebue to be here today and taking time from his 
duties to testify before the Committee.
    So with that, Mr. Chairman, I will turn it back to you and 
again I am going to pop downstairs and try to get back up. But 
if I do not have an opportunity, I appreciate, again, the 
chance to welcome our witness and thank you for moving these 
bills.
    Senator Akaka. Thank you very much, Senator Murkowski. It 
is good to hear from you on this bill.
    Let me at this time introduce our first panel, Ms. Jodi 
Gillette, Deputy Assistant Secretary of Indian Affairs at the 
Department of the Interior, and Mr. Robert McSwain, Deputy 
Director for Management Operations at the Indian Health Service 
in the Department of Health and Human Services.
    Ms. Gillette, will you please proceed with your testimony.

         STATEMENT OF JODI GILLETTE, DEPUTY ASSISTANT 
 SECRETARY FOR INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Gillette. Thank you, Chairman Akaka and thank you, 
Members of the Committee, Honorable Murkowski, for the 
opportunity to provide the Department's position on H.R. 1560, 
a bill that will amend the Ysleta del Sur Pueblo and Alabama 
Coushatta Indian Tribes of Texas Restoration Act.
    The Department of Interior supports H.R. 1560 which will 
allow the Ysleta del Sur Pueblo to determine the membership of 
their Tribe. Back in 1987, Congress passed the Restoration Act 
which restored the Federal trust relationship between the 
Federal Government and the Ysleta del Sur Pueblo. This 
Restoration Act, as passed, prescribed the membership for the 
Tribe to only those individuals on the Tribe's 1984 membership 
roll and to their descendants with at least one-eighth or more 
Tigua-Ysleta del Sur Pueblo Indian blood and who are enrolled 
by the Tribe.
    H.R. 1560 would amend the Restoration Act to enable the 
Tribe to determine for themselves the blood quantum 
requirements, if any, for membership into the Tribe. The 
proposed amendment would delete the one-eighth blood quantum 
requirement and replace this requirement with ``any person of 
Tigua-Ysleta del Sur Pueblo Indian blood enrolled by the 
Tribe.'' This amendment would allow the Tribe to determine 
their own enrollment criteria, as any other federally-
recognized Tribe has the right to do.
    The Department is in receipt of copies of Tribal 
resolutions from the Ysleta del Sur Pueblo Tribal Council in 
support of this change to the blood quantum requirements stated 
within this legislation. Also, the Department supports the 
Tribe's request to determine its criteria for membership which 
is consistent with the Administration's support for the 
policies of self-governance and self-determination for all 
federally-recognized Tribes.
    Currently, the Tribal enrollment for the Ysleta del Sur 
Pueblo is 1,691 members and the Department does not expect an 
additional Tribal priority allocation-based funding amount to 
be awarded to the Tribe regardless of the changes in the size 
of the Tribe.
    I will be happy to answer any questions the Committee may 
have.
    Thank you.
     [The prepared statement of Ms. Gillette follows:]

  Prepared Statement of Jodi Gillette, Deputy Assistant Secretary for 
            Indian Affairs, U.S. Department of the Interior
    Good morning Mr. Chairman, Vice Chairman, and Members of the 
Committee. My name is Jodi Gillette. I am the Deputy Assistant 
Secretary for Indian Affairs at the Department of the Interior 
(Department). I am here today to provide the Department's position on 
H.R. 1560, a bill to amend the Ysleta del Sur Pueblo and Alabama 
Coushatta Indian Tribes of Texas Restoration Act to allow the Ysleta 
del Sur Pueblo Tribe to determine blood quantum requirements for 
membership in their Tribe. The Department supports H.R. 1560.
Background
    In 1987 Congress passed the Ysleta del Sur Pueblo and Alabama and 
Coushatta Indian Tribes of Texas Restoration Act (Restoration Act), 
which restored the federal trust relationship between the Federal 
Government and the Ysleta del Sur Pueblo (Tribe).
    The Restoration Act, 25 U.S.C.  1300G-7(a)(2)(i), prescribes 
membership for the Tribe to only those individuals on the Tribe's 1984 
Membership Roll, and to their descendants with at least \1/8\ or more 
Tigua-Ysleta del Sur Pueblo Indian blood and who are enrolled by the 
Tribe. This codified criterion has been adopted into Article 3, Section 
3.01, of the Ysleta del Sur Pueblo Code of Laws. Currently the tribal 
enrollment for the Ysleta Del Sur Pueblo is 1,691 members. Indian 
Affairs cannot find any other instances where a Tribe's membership is 
bound by a blood quantum requirement under Federal statute.
H.R. 1560
    H.R. 1560 would amend the Restoration Act to enable the Tribe to 
determine for themselves the blood-quantum requirements, if any, for 
membership into the Tribe. The proposed amendment would delete the \1/
8\ blood quantum requirement and replace the current requirement with 
``any person of Tigua-Ysleta del Sur Pueblo Indian blood enrolled by 
the tribe.'' This amendment would allow the Tribe to determine their 
own enrollment criteria, as any other federally-recognized tribe has 
the right to do.
    While the legislation would allow the Tribe to determine the size 
of its own membership, the Department does not expect an additional 
Tribal Priority Allocation base funding amount to be awarded to the 
Tribe.
    Indian tribes have the inherent authority to determine their 
membership. The Supreme Court has noted, ``A tribe's right to define 
its own membership for tribal purposes has long been recognized as 
central to its existence as an independent political community.'' See 
Santa Clara Pueblo v. Martinez, 436 U.S. 49 (1978). The Department is 
in receipt of copies of tribal resolutions from the Ysleta del Sur 
Pueblo Tribal Council in support of the change to the blood quantum 
requirements stated within the legislation. The Department supports the 
Tribe's request to determine its criteria for membership, which is 
consistent with the Administration's support for the policies of Self-
Governance and Self-Determination for all federally recognized tribes.
Conclusion
    This concludes my prepared statement. I will be happy to answer any 
questions the Committee may have.

    Senator Akaka. Thank you very much, Ms. Gillette.
    Mr. McSwain. will you please proceed with your testimony.

  STATEMENT OF ROBERT McSWAIN, DEPUTY DIRECTOR FOR MANAGEMENT 
 OPERATIONS, INDIAN HEALTH SERVICE, U.S. DEPARTMENT OF HEALTH 
                       AND HUMAN SERVICES

    Mr. McSwain. Thank you, Mr. Chairman and Members of the 
Committee. Good afternoon.
    I am Robert McSwain, as announced, the Deputy Director of 
Management Operations of the Indian Health Service, and I am 
pleased to have the opportunity to testify on S. 1898 for the 
Maniilaq Association, providing for the conveyance of Indian 
Health Service real property located in Kotzebue, Alaska.
    In 1995, the, I think it is important to kind of point out 
some really important points that build to where we are. In 
1995, the Maniilaq Association in Kotzebue, Alaska assumed 
responsibility for provision of IHS-funded services under the 
authority of the Indian Self-Determination and Education Act. 
They took over operating a program that the Indian Health 
Services had previously operated.
    On March 31, 2009, IHS transferred the ownership of the 
Maniilaq Health Center and Hospital by the use of quitclaim 
deed. So, after completing an environmental review and 
certification on November 18, 2009, two additional parcels of 
property named in this bill, including staff quarters, were 
transferred. Important point. We, the last environmental 
assessment assurance was made in 2009, three years ago.
    S. 1898 provides for the conveyance of Kotzebue property 
from the United States to the Maniilaq Association and proposes 
to modify the existing quitclaim by transferring, requiring the 
use of a warranty deed. A warranty deed is a fee simple, free, 
clear title to the property.
    IHS supports this bill because it views the proposed 
transfer as furthering the special partnership that exists 
between American Indian and Alaska Native Tribal governments, 
and moreover is in keeping with a Presidential Memorandum on 
administrative flexibility as it pertains to Tribal 
governments.
    It is important to emphasize as a normal practice we do not 
transfer properties via the warranty deed process mechanism. 
However, we will support the exception in this case because of 
the Tribe's initiative to expand access to its healthcare 
system for its community members.
    We do believe the language in S. 1898 relating to 
environmental liability needs to be clarified so that the 
Maniilaq Association is responsible for any environmental 
contamination which may occur or arise as of or after the date 
of the 2009 conveyance. And the reversionary clause language 
should be clarified to apply should the Association cease to 
use the property for health purposes.
    It is important to point out that since 2009 there have 
been no existing problems with the current quitclaim deed 
signed in 2009 with the Maniilaq Association.
    So, we look forward to working with you, Mr. Chairman, on 
measures like these to improve the health of the Alaska Native 
population.
    Mr. Chairman, this concludes my testimony. I appreciate the 
opportunity to appear before you in support of S. 1898 and will 
be happy to answer any questions that you might have.
    Thank you.
    [The prepared statement of Mr. McSwain follows:]

 Prepared Statement of Robert McSwain, Deputy Director for Management 
Operations, Indian Health Service, U.S. Department of Health and Human 
                                Services
    Mr. Chairman and Members of the Committee:
    Good afternoon. I am Robert McSwain, Deputy Director for Management 
Operations of the Indian Health Service (IHS). I am pleased to have the 
opportunity to testify on the S. 1898 for the Maniilaq Association, 
providing for the conveyance of Indian Health Service (IHS) real 
property located in Kotzebue, Alaska.
    The Indian Health Service plays a unique role in the Department of 
Health and Human Services (HHS) because it is a health care system that 
was established to meet the federal trust responsibility to provide 
health care to American Indians and Alaska Natives (AI/ANs). The 
mission of the IHS, in partnership with American Indian and Alaska 
Native people, is to raise the physical, mental, social, and spiritual 
health of AI/ANs to the highest level. The IHS provides comprehensive 
health service delivery to approximately 2.1 million AI/ANs through 31 
Hospitals, 50 health centers, 31 health stations and 2 school health 
centers. Tribes also provide healthcare access through an additional 15 
hospitals, 254 health centers, 166 Alaska Village Clinics, 112 health 
stations and 18 school health centers. In support of the IHS mission, 
the IHS and Tribes provide access to functional, well maintained and 
accredited health care facilities and staff housing.
    S. 1898 deals with the conveyance of lands located in Kotzebue, 
Alaska which were used by the Federal Government for the delivery of 
IHS services. In 1995 the Maniilaq Association in Kotzebue, Alaska 
assumed responsibility for the provision of the IHS-funded health care 
services under the authority of the Indian Self-Determination and 
Education Assistance Act (ISDEAA). Some of the federal property, which 
had been used in connection with health and related programs in 
Kotzebue, Alaska by the IHS, was transferred through quit claim deeds 
to the Maniilaq Association.
    S. 1898 provides for the conveyance of the Kotzebue property from 
the United States to the Maniilaq Association and proposes to modify 
the existing quit claim deed transfer by requiring the use of a 
warranty deed. On March 31, 2009, IHS transferred ownership of the 
Maniilaq Health Center/Hospital. After completing an environmental 
review and certification on November 18, 2009, the two additional 
parcels of property, named in this bill, including staff quarters, were 
transferred.
    The IHS supports this bill because it views the proposed transfer 
as furthering the special partnership that exists with American Indian 
and Alaska Native tribal governments, and, moreover, is in keeping with 
the Presidential Memorandum on Administrative Flexibility as it 
pertains to tribal governments. It is important to emphasize that, as a 
normal practice, we do not transfer properties via the warranty deed 
mechanism. However, we will support an exception in this case, because 
of the Tribe's initiative to expand access to its health care system 
for community members. This proposal will give the Maniilaq Association 
flexibility to leverage additional resources because ownership of the 
property under a warranty deed will give them unencumbered ownership of 
the property described in S. 1898.
    We do believe the language, relating to environmental liability, 
needs to be clarified so the Maniilaq Association is responsible for 
any environmental contamination which may occur or arise ``as of or 
after the date of the 2009 conveyance''; and, the ``reversionary 
clause'' language should be clarified to apply, should the Association 
cease to use the property for health purposes.
    We do not believe there will be reasons to use this mechanism in 
future cases. There are no existing problems with the current quit 
claim deed signed in 2009 with the Maniilaq Association. Traditionally, 
the Alaska Native Corporations have preferred to leave the title of 
their facilities previously operated by the IHS with the Federal 
Government. It is highly unlikely there will be similar requests from 
Tribes in the other 35 states to have warranty deeds since they are 
currently on tribally owned lands and the government leases property 
from them for the health care facilities. This warranty deed transfer 
would be the first of its kind in Alaska, since only one other property 
was transferred to the Southeast Alaska Regional Health Corporation 
through a quit claim deed.
    Concerning retrocession, we think it unlikely. We can count only 
four retrocessions since the enactment of ISDEAA in 1975 and these were 
only small program components and three have been re-assumed by the 
Tribes. None of these were in the Alaska Area.
    We look forward to working with you, Mr. Chairman, on measures like 
these to improve the health of the Alaska Native population. Mr. 
Chairman, this concludes my testimony. I appreciate the opportunity to 
appear before you to discuss S. 1898. I will be happy to answer any 
questions the committee may have. Thank you.

    Senator Akaka. Well, thank you very much and we look 
forward to working with you also. Thank you so much for your 
statements.
    Ms. Gillette, can you elaborate on how the right of Tribes 
to determine their own membership furthers the Administration's 
support for self-governance and self-determination.
    Ms. Gillette. I think that, consistent with the many, many 
years of history related to the ways that the Federal 
Government has worked with Indian Tribes, we are very, very 
supportive of the Tribe's right to determine their own 
membership. And that is based upon how Tribes have made it 
through the different eras of history.
    The Supreme Court in Santa Clara versus Martinez affirmed 
the Tribes' right, inherent right, to determine its own 
membership and this is something that we feel very strongly 
about as it relates to how a Tribe governs itself and its 
members. And when there are statutory provisions in place that 
limits a Tribe's ability to determine their own membership, 
that is actually going against the line of reasoning that you 
would have a Tribe determine, be self-determining, and self-
governing.
    Senator Akaka. Well, this of course has been a goal of many 
of our indigenous peoples and we are fortunate to have an 
Administration that has indicated support for the indigenous 
people. And of course we want, in this case, the Tribes that we 
are talking about, to be able to use whatever the laws and 
policies or regulations are in place to help bring this about. 
So, thanks for the elaboration of the rights of the Tribes to 
determine their own membership.
    Mr. McSwain, can you describe the next steps in the process 
of transferring the property of this legislation if it is 
passed and tell us what the time frame would be for conveying 
the property?
    Mr. McSwain. Thanks for the question, Mr. Chairman. The 
first step we are going to do, obviously, is go back and make 
sure that the land is free of any environmental concerns before 
we move to a warranty conveyance. We estimate 60 to 90 days on 
the conveyance depending on how many places we have got to go.
    I am sure that this is new for us. I should point out in 
the history of the Indian Health Service we have never done a 
warranty transfer. So, I am being optimistic when I say 90 
days, but we are going to have to involve some other people, 
obviously in administration, to review what we are doing to 
make sure we are doing it correctly.
    But, there is no experience within the Indian Health 
Service of actually doing this. So we will be certainly looking 
at the department for their help and other departments as 
necessary. But that is sort of a gauge right now that I am 
looking at. It could take a little bit longer but should not 
take that much longer and we will certainly keep the Maniilaq 
Association apprised as we move forward.
    Senator Akaka. I am so glad that you mention about looking 
at other departments and agencies because this is a rather new 
process for you and I want to commend you on that, tell you 
that I hope you can develop that partnership of working 
together with other agencies and departments to move some of 
these things along.
    And I must tell you at this point in time that I applaud 
the President's style of moving things quickly. You know, 
instead of, for instance, having a commission, which is a 
formal group, to deal with an issue and then to put the group 
together and to get a chairman, it can take easily six months 
plus to bring that around. And by the time the commission gets 
to work, it is a year gone. Well, anyway, there goes the time.
    It takes a lot of time and it is more formal in 
organization. Whereas the President is the type that will say 
well, it is an issue that we need to do right now, get a team 
together of experts in that area and have them come together 
and work on whatever the issue is and when an answer is then 
recommended, that is it for the team. But it moves, as you can 
see, quickly. Your intent to include discussions with other 
agencies and departments is really a good thing to do and can 
help to move this. And you are honest to say you think 60 to 90 
but you are not sure about what is going to happen. But from 
what you have said, I think that you will try your best to move 
as quickly as you can. Yes.
    Let me give you, and ask you, and give you an opportunity 
to make any further remarks, both of you, about this issue 
because, I do not know the exact number but there are about 
more than 500 Tribes that you have to deal with on a continent 
that is considered American Indian Tribes, not counting the 
Alaskan, and so many things are coming along and we are trying 
to push these Tribes to be more vocal. This is why, as you 
know, at every hearing I am saying please, if you want to, you 
know, tell us something, do that, please. You have two weeks to 
do it.
    But the whole idea is to try to get the people out there, 
the indigenous people, in this case the Tribes, to voice their 
opinions. And so for them to be able to self-govern and 
determination, you know, use that more wisely and more often, 
you know, may be good. And I just wanted to have any further 
comments from either of you along those issues.
    Ms. Gillette?
    Ms. Gillette. In terms of what the Assistant Secretary and 
the Secretary have talked about a lot of the time is really 
giving tools to the Tribes to further their ability to self-
govern and self-determine and I think that it has been 
tremendous to be able to work with your Committee and the 
Members of the Committee on how we can advance doing that.
    And I think that there is always a balance between funding 
considerations and how the Government is going to be able to 
provide tools when sometimes the tools cost money. And things 
like this, this bill, H.R. 1560, this is something that is 
going to allow for the Tribe to empower itself in a way that 
was limited by statute and we do not feel like it costs 
anything to the Federal taxpayers to do that.
    Each Tribe has a Tribal priority allocation-based funding, 
and that is pretty set, and whether a Tribe grows, whether it 
is through birth or through new members being identified in 
other cities or something like that, like, you know, when 
people are relocated and then a big family comes in through 
Indian Child Welfare Act or something like that, Tribes grow 
and through natural processes and the TPA does not usually, is 
not usually impacted by those kind of changes.
    And so, this is something that will not cost anything and 
it is a really good thing, I think. The more that we can remove 
some of those statutory or regulatory things that hinder Tribes 
to govern themselves, everybody wins in those cases.
    Thank you.
    Chairman Akaka. Thank you very much.
    Mr. McSwain.
    Mr. McSwain. Mr. Chairman, I was just reflecting on your 
question and I would say that if Dr. Roubideaux were sitting 
here today addressing this issue she would say what this does 
is further something very important to her, which is further 
the Tribal-Government relationship. And this is another way.
    And for purposes of our mission of delivering healthcare, 
whatever we can do to help the Tribes do that and to self-
determine, in the case of Maniilaq, this is, and I will say 
that we say that with a lot of concerns about making sure this 
one is right, that no one fails and that there is no problem 
with it.
    But there is a lot of trust involved. We trust that they 
will do what they are committed to do and we will trust that we 
will follow their lead. That is what I believe Dr. Roubideaux 
would say if she were here.
    Senator Akaka. Well, thank you very much. Thank you for 
your responses.
    And now we are delighted to have our Senator Udall here and 
I would like to call on you for any opening statement or 
questions you may have.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Chairman Akaka, thank you very much. And 
thank you for holding this very important hearing.
    The two bills you have today coming before the Committee I 
think are of great importance to many communities of Native 
Americans and Alaska Natives. And I would like to take a minute 
to focus especially on the second bill, which is H.R. 1560, a 
bill that would amend the Ysleta del Sur Pueblo and Alabama and 
Coushatta Indian Tribes of Texas Restoration Act.
    The Ysleta del Sur Pueblo is a member of the All Indian 
Pueblo Council, headquartered in New Mexico. The All Indian 
Pueblo Council has 19 members. I believe the Ysleta del Sur is 
the 20th member. So these are all pueblos in New Mexico or 
nearby New Mexico and, in fact, the Tribe is originally from 
New Mexico and maintains relationships with other pueblos in 
New Mexico.
    H.R. 1560 already passed this Committee the last Congress 
and has passed in the full House in three consecutive 
Congresses. So, we have had a bill that has some real life and 
has shown that it can get through three different Congresses 
and we need to get the job done on this one.
    H.R. 1560 would simply allow the Yselta del Sur Tribe the 
same right that other Tribes justifiably enjoy, the right to 
determine who can be enrolled in the Tribe. Specifically, the 
bill would release the Tribe from the current one-eighth degree 
requirement and allow the Tribe to determine blood quantum 
requirements for Tribal membership. It is a simple bill. It is 
a good bill. I look forward to hearing related testimony and 
urge my colleagues to support H.R. 1560 and the efforts of the 
Ylseta del Sur Pueblo to exercise self-determination.
    I would also say that the All Indian Pueblo Council 
supports H.R. 1560. They have advised me of this, they have 
passed a resolution, and they want it to be known that they are 
very supportive of H.R. 1560.
    [The information referred to follows:]

    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    So with that, Chairman Akaka, I thank this panel of 
witnesses and look forward to the Second Panel.
    Senator Akaka. Thank you. Thank you very much, Senator 
Udall. And I want to thank our first panel. Thank you for being 
here and supporting our bill. Thank you.
    I would like to invite the second panel to the witness 
table, Mr. Paul Hansen, who is the Deputy Administrator at the 
Maniilaq Health Center in Kotzebue, Alaska, and Honorable 
Carlos Hisa, Lieutenant Governor of the Ysleta del Sur Pueblo 
in El Paso, Texas. Accompanying Lieutenant Governor Hisa is Ms. 
Janette Hernandez, a Tribal member with the Ysleta del Sur 
Pueblo.
    Mr. Hansen, please proceed with your testimony.

STATEMENT OF PAUL HANSEN, DEPUTY ADMINISTRATOR, MANIILAQ HEALTH 
                             CENTER

    Mr. Hansen. Thank you, Chairman, Mr. Senator.
    My name is Paul Hansen. I am the Deputy Administrator at 
Maniilaq Health Center in Kotzebue. I am here on behalf of the 
Maniilaq Association.
    Maniilaq is an Association of 12 Tribal governments in 
northwest Alaska. The association is a regional non-profit 
health corporation and we provide services under the self-
governance provisions of the Indian Self-Determination and 
Education Assistance Act.
    I have worked for the Association now for more than 30 
years and have seen a lot of advancement in the provision of 
services and the way that we have been able to provide those 
services as the Self-Determination Act has been amended. I 
think the self-governance provisions of the ISDEAA have 
resulted in very good things.
    The Association started contracting with the Indian Health 
Service back in the late 1970s and in the early 1980s. In 1988, 
the Association contracted for the hospital operations in 
Kotzebue and assumed all of the Indian Health Service 
responsibilities for provision of services to the service area. 
In 1995, we were one of the original signers of the Alaska 
Tribal Health Compact and started providing those services 
under self-governance.
    Today, we are here in support of Senate Bill 1898. As you 
have mentioned, there is a companion bill that was passed by 
the House, H.R. 443. Because of where we are in the legislative 
session, I would ask that this Committee approve the House 
version of that bill. Those two bills differ a little bit in 
the way they were drafted but the content is substantially the 
same. That way, that would keep us from going back and either 
having the House re-approve the bill or a conference being 
needed to work out the details of that.
    The bill provides for conversion from a quitclaim deed to a 
warranty deed of three parcels of property in Kotzebue. One 
parcel is the property that the hospital sits on and the two 
other parcels hold quarters for the folks who work at the 
hospital and in the new long-term care center.
    Some of the impetus for this action came as a result of our 
recent completion of a long-term care center that was co-
located to the Maniilaq Health Center in Kotzebue. We are very 
proud of that facility. It was a long-time dream of the board 
to be able to provide long-term care services in the region. 
Until now, when elders needed that level of medical care they 
had to move down to Anchorage, which is over 500 air miles 
away, which separated them from their families during their 
last days. It was really a sad situation that now has been 
alleviated. So we are very proud and excited about the new 
program.
    We would like to convert these quitclaim deeds to warranty 
deeds because of some inadequacies that are in the provisions 
of the quitclaim deeds. The quitclaim deed imposes some 
conditions and obligations that are beyond those that are 
required in the Indian Self-Determination Act. We would like 
the deeds to reflect only those conditions that the Act also 
imposes. Additionally, the quitclaim deed contains some 
reversionary clauses again that go beyond what are required by 
the Indian Self-Determination Act.
    We would like a warranty deed that would eliminate both 
those inadequacies of the quitclaim deeds and help us have more 
security in that property and more fully use the property for 
its true value.
    With that, I would like to thank the Committee for allowing 
me to represent our Tribes here and provide the testimony. 
Thank you.
    [The prepared statement of Mr. Hansen follows:]

   Prepared Statement of Paul Hansen, Deputy Administrator, Maniilaq 
                             Health Center
    My name is Paul Hansen and I am the Deputy Administrator for the 
Maniilaq Health Center and I am pleased to testify before this 
Committee on behalf of the Maniilaq Association. The Maniilaq 
Association is an Alaska Native regional non-profit organization 
representing twelve tribes in Northwest Alaska. We strongly support S. 
1898, legislation that would convey certain property from the United 
States to the Maniilaq Association located in Kotzebue, Alaska. We 
thank the Alaska congressional delegation for introducing and moving 
this legislation.
    The Maniilaq Association has for many years carried out a range of 
health and social services programs in the Northwest Arctic Borough on 
behalf of its member Alaska Native villages under the Self- Governance 
provisions of the Indian Self-Determination and Education Assistance 
Act (ISDEAA). Maniilaq Association carries out these programs in 
accordance with the Alaska Tribal Health Compact with the United States 
and Funding Agreements with the Indian Health Service.
    As you know, the House has passed companion legislation to S. 1898 
(H.R. 443 introduced by Representative Don Young). While the bills have 
some minor drafting differences they are substantively the same and 
would accomplish the same things. In the interest of not having to have 
a conference on this legislation or the House being required to re-pass 
it, we recommend that the Senate approve the House-passed bill. We know 
there is little floor time left in this session, and are concerned that 
requiring the House to act again would endanger enactment of this 
legislation. The bills would require the Secretary of Health and Human 
Services to convey to the Maniilaq Association property located in 
Kotzebue, Alaska, for use in connection with these health and social 
service programs. The property to be conveyed consists of three parcels 
of land including buildings and appurtenances on the land.
    The first parcel is an 8.10 acre tract on which the Maniilaq Health 
Center is located and on which the Maniilaq Association recently 
completed the construction of a long term care facility adjacent to the 
Health Center. Completion of this project has been a long term goal of 
Maniilaq Association and was the product of many years of work. In 
connection with this project Maniilaq Association unsuccessfully sought 
authorization from Indian Health Service to build the long term care 
facility as an addition to the Health Center which was owned by the 
Indian Health Service. Finally, after several years of discussion, 
Maniilaq Association realized that to keep the project moving it had no 
option but to agree with the Indian Health Service's suggestion that it 
accept title to the property. The parcel was transferred by the Indian 
Health Service to the Maniilaq Association through a Quitclaim Deed 
issued by the Indian Health Service to the Maniilaq Association on 
March 31, 2009. Final construction of the 18 bed facility was completed 
last year. The facility was dedicated in October, 2011 and its first 
residents moved in that same month.
    The second and third parcels described in S. 1898/H.R. 443 are land 
on which housing for employees of the Health Center and long term care 
facility is located. The Indian Health Service transferred these 
parcels to Maniilaq Association approximately six months after the 
first parcel was transferred.
    The conveyance required by S. 1898/H.R. 443 will be through a 
warranty deed without consideration and without imposing any 
obligation, term, or condition on the Maniilaq Association, or 
reversionary interest in the United States, other than required by S. 
1898/H.R. 443 itself or by section 51 2(c)(2)(B) of the ISDEAA. This 
makes the conveyance required by S. 1898/H.R. 443 consistent with the 
ISDEAA, which allows reversion of title back to the United States, at 
the option of the Secretary, only upon retrocession or withdrawal by 
the Maniilaq Association from the Alaska Tribal Health Compact or re-
assumption of the compacted programs by the Indian Health Service.
    The warranty deed required by S. 1898/H.R. 443 will supersede the 
Quitclaim Deed issued by the Secretary to the Maniilaq Association on 
March 31, 2009. The quitclaim deed includes provisions for Indian 
Health Service control of the Maniilaq Association's use of the 
property which are inconsistent with conveyance of title under the 
ISDEAA. For example, the quitclaim deed requires Indian Health Service 
approval for any mortgage or encumbrance of the property as security 
for construction or other loans for improvements on the property. 
Indian Health Service approval is also required for any contract which 
would impact the value of the property. This gives the Indian Health 
Service continuing control over the Maniilaq Association's use of the 
property. Breach of these requirements, which are made covenants 
running with the land, results in an immediate reversion of title back 
to the Indian Health Service. This goes far beyond the conditions for 
reversion of title back to the United States in section 51 2(c)(2)(B) 
of the ISDEAA.
    While a quitclaim deed transfers the grantor's interest in the 
property, it does not warrant that the title is valid. Transfer by 
warranty deed, which requires special legislation, expressly guarantees 
the grantor's good and clear title and contains covenants concerning 
the quality of title, freedom from encumbrances, and defense of title 
against other claims. This gives the Maniilaq Association more security 
in its title and more flexibility in use of the property in carrying 
out health and social services programs for its member villages.
    S. 1898/H.R. 443 exempts the Maniilaq Association from liability 
for environmental contamination or hazards, as defined in Federal law, 
present on the property as of the date of conveyance, notwithstanding 
any provision of Federal law. S. 1898/H.R. 443 does not pre-empt state 
environmental laws and the Secretary is granted any easement or access 
to the property which may be necessary for the Secretary to satisfy any 
retained environmental obligations and liability prior to conveyance. 
The Secretary must also comply with the notice and warranty provisions 
of the Comprehensive Environmental Response, Compensation, and 
Liability Act (CERCLA) applicable to transfer of property owned by the 
United States on which any hazardous substance was stored for one year 
or more, known to be released, or disposed of on the property.
    Enactment of S. 1898/H.R. 443 will enable the Maniilaq Association 
to exercise its rights of ownership in the transferred property 
consistent with the ISDEAA and the principles of self-governance.
    On behalf of the Maniilaq Association, including our twelve 
constituent villages and their members, we thank the Committee for 
holding this hearing on S. 1898.

    Senator Akaka. Thank you very much.
    And now, Lieutenant Governor Hisa, you proceed with your 
testimony.

STATEMENT OF HON. CARLOS HISA, LIEUTENANT GOVERNOR, YSLETA DEL 
              SUR PUEBLO; ACCOMPANIED BY JANETTE 
                    HERNANDEZ, TRIBAL MEMBER

    Mr. Hisa. Thank you. Good afternoon Chairman, Senator 
Udall.
    First of all, thank you for giving the Pueblo the 
opportunity to come and testify in support of H.R. 1560.
    Quick introductions. My name is Carlos Hisa. I am the 
Lieutenant Governor for the Ysleta del Sur Pueblo-Tigua Nation 
located in El Paso, Texas. I have served in this capacity for 
11 terms, which is 11 years. With me today is our Governor, 
Frank Paiz, our Legislative Assistant, Jessica Cordova and 
Janette Hernandez, a Tribal member, a student, an intern in our 
Social Services Department and a mother. She also provided 
written testimony that is attached to my packet in which she 
gives examples of what she faces because of this limitation on 
a constant basis at home.
    Senator Akaka. Well, welcome to all of you.
    Mr. Hisa. Thank you.
    We are here to ask the Committee to favorably support H.R. 
1560 and get it out of Committee and into the Senate for a 
vote, hopefully by this spring. There is a sense of urgency. We 
have identified a couple of descendants that need our 
assistance with their ICWA cases and educational services that 
we want to provide.
    The amendment in this bill just gives the Tribe the 
opportunity to determine its own membership. It is something 
that every Tribe in the nation practices and we are limited. 
This is interfering in our sovereignty, self-determination and 
self-governance. So, we are strongly pushing this and hopefully 
we can get it passed.
    As mentioned by Senator Udall, this is not the first time 
this bill has been introduced to the Congress. A year and a 
half ago we managed to get it out of the House successfully 
with no opposition. When it came to the Senate, there was a CBO 
report that was introduced which stated that the Federal 
Government would be responsible financially for the increase in 
the population. That was an incorrect statement. As much as we 
tried to correct that, we ran out of time and it failed to pass 
the Senate.
    This year, we again managed to get it out of the House 
successfully with no opposition and it is in the Senate. Since 
then, we have corrected that CBO report. The CBO now states 
that our funding is not based on population. It is on formulas 
that were put into place back in 1987 when we were recognized. 
And again, it is not based on population. Our population will 
increase, but again, the Federal Government will not be 
responsible for giving us any additional dollars for this.
    The bill is something that the Tribe has prioritized. We 
really want to stress that and wish that we can get it out by 
this spring, if possible.
    I am here to answer any questions. So is Janette Hernandez. 
She is a prime example of what the bill has created. It has a 
created identity crises in situations amongst our youth in our 
Tribal community and she experiences this every day. As you can 
see from the picture here, that is her daughter who is a 
descendant. I would like, if you could give her some time so 
she can explain the types of things that she faces at home.
    I am at your disposal to answer any questions that you may 
have.
    Thank you for the opportunity.
    [The prepared statement of Mr. Hisa follows:]

Prepared Statement of Hon. Carlos Hisa, Lieutenant Governor, Ysleta Del 
      Sur Pueblo; accompanied by Janette Hernandez, Tribal Member
    Good afternoon Mr. Chairman, honorable members of the Senate 
Committee on Indian Affairs. My name is Carlos Hisa and I am 
accompanied by Janette Hernandez, an enrolled member of Ysleta del Sur 
Pueblo whose children are directly impacted by the blood quantum limit 
requirements for tribal membership. Her statement is attached hereto as 
Exhibit A. I am a member of Ysleta del Sur Pueblo located in El Paso 
County, Texas. For the past 11 years I have served as the Lt. Governor 
of the Pueblo. My term of office is one year. The matter under 
consideration has been a priority for the Pueblo since before my first 
term.
    H.R. 1560 is about freedom--freedom from intrusive federal control. 
Beginning in the 1970s, this Congress embarked on a new federal Indian 
policy. You rejected the destructive policies of termination of Indian 
tribes, assimilation of Indian people and their culture, and the 
dispossession and despoiling of Indian lands. Instead, you created the 
present self-determination era of Indian law to free Indian tribes from 
an overreaching Federal Government. This Congress has encouraged Indian 
tribes to take up the mantle of self-government as distinct and 
independent political entities. Critical to that task is the ability of 
an Indian tribe to determine its own membership. The Supreme Court has 
noted, ``A tribe's right to define its own membership for tribal 
purposes has long been recognized as central to its existence as an 
independent political community.'' See Santa Clara Pueblo v. Martinez, 
436 U.S. 49 (1978). Community determination of its own membership is 
inherently the most internal of all tribal matters.
    The Pueblo has occupied its present location since the Spaniards 
removed it from New Mexico during the Pueblo Revolt of 1680. The Pueblo 
has existed at its present location twice as long as the State of Texas 
has been in existence. It is the longest continually occupied community 
in Texas. It is the only Indian Pueblo still existing in Texas. It 
recently rejoined the All Indian Pueblo Council after being absent for 
over 330 years. The Council now comprises twenty Pueblos.
    In 1968, toward the end of the termination era, Congress recognized 
the Pueblo as an Indian tribe and transferred federal trust 
responsibilities for the Pueblo to the State of Texas. On August 18, 
1987, the United States Congress restored the Federal trust 
relationship between the United States and the Pueblo. In the 
Restoration Act, Congress imposed a \1/8\ Tigua blood quantum 
requirement for membership.
    No other Indian tribe in Texas is subject to a congressionally 
mandated blood quantum limitation on its membership. No other Pueblo is 
subject to such a blood quantum limitation. Except for one early 
termination era enactment, Congress has subjected no other tribe in the 
United States to such a blood quantum limitation for membership. In 
fact Congress has declined to include such a blood quantum limitation 
on those Indian tribes which Congress has recognized (five tribes) or 
restored to trust relationship (two tribes) subsequent to the Pueblo's 
Restoration Act. With the exception of Ysleta del Sur Pueblo, Congress 
has not imposed a blood quantum limitation on any tribe in over half a 
century.
    Ysleta del Sur Pueblo is a tribe of Tigua Indians. To be Tigua is 
to believe in the power of our drum, the heartbeat of our community; to 
respect the authority of our Cacique; and to revere our traditions. 
Unfortunately, the blood quantum limitation has had the effect of 
preventing Tiguas from being members. At present, sixty-six percent of 
tribal members lack a \1/4\ blood quantum. Absent the other parent 
having sufficient Tigua blood quantum, the children of sixty-six 
percent of tribal members cannot be members of the Pueblo despite being 
Tigua. This includes my three daughters.
    Our young men and women are vibrant Pueblo people who are part of 
our community. Many aspire to serve our Pueblo, but do not meet the 
blood quantum limitation to be a member. They participate in our 
cultural events, they study our history, they engage in community 
service, they learn and speak the Tiwa language, and they understand 
the importance of carrying the traditions of our Pueblo forward. These 
``descendants'' are a part of our community and our people recognize 
them as legitimate members. They are Tigua. They are our future, our 
hope, but they will not be able to serve as Tribal Councilmen and 
Councilwomen or in other tribal offices. They will not be eligible for 
federally funded services from the Pueblo.
    They live on our reservation and interact with our members who are 
their mothers, fathers, grandfathers, grandmothers, cousins, uncles, 
aunts, and neighbors and influence the entire community for good or for 
bad. They must be treated like citizens of our Pueblo, but if not 
included as members they will not be subject to the jurisdiction of the 
Pueblo. The inability to exert jurisdiction over people who are the 
children of many of our members has a negative social impact on our 
Pueblo.
    Passage of H.R. 1560 frees the Pueblo to make all Tigua members 
rather than accepting only those who meet the requisite blood quantum 
but who may otherwise be anything but ``Tigua.'' Passage of H.R. 1560 
assures the future of the Pueblo and the continued security of its 
people and neighbors without cost to the Federal Government.
    The legislative history of the Pueblo's Restoration Act records the 
Department of the Interior's belief that the Congress should place some 
limit on the potential service population of tribes being made eligible 
for federal benefits, the first time that the Department expressed this 
concern--a concern, as previously noted, that has been applied only to 
this Pueblo. Congress has never seen fit to do so since the Pueblo's 
Restoration Act, perhaps due to the sentiments expressed in a House 
Committee Report accompanying the bill--

         The Committee has strong reservations about the 
        constitutionality of a law which would determine eligibility 
        for such Federal services based on a racial criterium such as 
        the degree of Indian blood instead of a political criterium 
        such as the membership in an Indian tribe.

    The language of H.R. 1560 is the same as that H.R. 5811 introduced 
by Congressman Reyes in the last Congress. On a motion to suspend the 
rules, the House agreed to and passed the bill by voice vote on 
September 22, 2010. This committee reported the bill favorably by 
unanimous voice vote on November 18, 2010. The bill was placed on the 
Senate Legislative Calendar under General Orders where it languished, 
possibly due to an erroneous CBO cost estimate.
    Given the unique manner in which the Federal Government funds 
Native American services, enactment of H.R. 1560 will have no federal 
fiscal impact. In support of this statement I am providing the 
committee with copies of the Congressional Budget Office Cost Estimate 
(Exhibit B) that confirms:

         ``CBO estimates that implementing H.R. 1560 would have no 
        significant impact on the federal budget.''

    The Cost Estimate also maintains that:

         ``H.R. 1560 contains no intergovernmental or private-sector 
        mandates as defined in the Unfunded Mandates Reform Act and 
        would impose no costs on state, local, or tribal governments.

    Federal programs which fund tribal services, including those of the 
Pueblo, are not entitlement programs. Agencies distribute appropriated 
funds among Indian tribes in their service area according to set 
percentages which are independent of any increase or decrease in a 
tribe's population. The Pueblo's 1989 budget serves as base funding for 
BIA allocations, and its 2002 budget serves as base funding for IHS 
allocations--as is true of all other tribes in the same service areas.
    Expeditious passage of H.R. 1560 frees the Pueblo to determine its 
own future, is consistent with recent Congressional action, and has no 
impact on the federal coffers. I respectfully request your support for 
and passage of H.R. 1560.

  Exhibit A--Prepared Statement of Janette Hernandez, Tribal Member, 
                         Ysleta Del Sur Pueblo
    Good afternoon Chairman and honorable members of the Senate 
Committee on Indian Affairs. My name is Janette Hernandez and I am a 
member of Ysleta Del Sur Pueblo. I am currently a student at the 
University of Texas at El Paso and serve as an intern at the Ysleta del 
Sur Pueblo's Social Services Department. I am also a mother of three 
little girls and step-mother to eight children. It is my duty as a 
Tigua woman to teach the next generation about the Tigua who have come 
before us and teach them about our roles and responsibilities to carry 
on our traditions and customs. It is also my duty to be there not only 
for my children, but for every child of the Pueblo.
    However, we are facing a crisis at Ysleta del Sur Pueblo. For over 
300 years the Pueblo has struggled to preserve its culture and 
community. We are proud of our ancestors who, captured by the Spanish 
during the Pueblo Revolt of 1680 and forced away from their homelands, 
established and defended what is now Ysleta del Sur Pueblo. As Tigua 
women, my mother and grandmother taught the other women in my family 
the importance of carrying on traditions and passing on the Tigua way 
of life. For centuries the Pueblo has endured the loss of its lands, 
the loss of use of other natural resources, and the loss of rights to 
determine how the community will care and provide for our children and 
future generations. It has been a 300 year struggle to survive as a 
community established and looked after by our Tigua ancestors. For as 
long as Tiguas have survived in Ysleta, tribal members have sought to 
live a life free of poverty, discrimination, and uncertainty. This is 
not yet a reality. Despite such obstacles we have taught our children 
to hold on, persevere, and standup for our identity as an Indian 
community. In the 1960s, when the Tigua were finally recognized as a 
tribe, members had lost almost everything, but we had each other. No 
one told us who could and could not be Tigua.
    As Tigua parents, we want to create a safe, healthy and nurturing 
environment for our children. However, as Tigua parents we face the 
insecurity of knowing that our culture, spirituality, and community are 
threatened. As a parent, it is overwhelming to know that your children 
and their children could be deprived of their heritage and traditions. 
As an Indian community we are forced to not only deal with the pressure 
of raising our children during complex and dangerous times, but we also 
must cope with cultural anxiety and uncertainty that is unknown to 
other ethnic communities. That anxiety and insecurity is passed on to 
our children. The will and tenacity to survive as a people may now be 
defeated by a sentence in our Restoration Act, an Act meant to restore 
and preserve a community but now operates to deny the next generations 
of Tigua youth their place in the community. Our children are deprived 
of federal services such as education and other service opportunities 
in their own community.
    My two youngest daughters are considered tribal members because my 
husband is also a tribal member. However, my oldest daughter from my 
first marriage to a non-Indian does not meet the 1987 Restoration Act 
definition of a Tigua. She is considered a descendant because she is 
below the minimum blood quantum. My husband's other children are tribal 
members because my husband has a higher blood quantum than I do. So, my 
oldest daughter is the only one in our family who is not recognized by 
the government as a tribal member.
    She is only eight years old but understands that because she is not 
Indian ``enough,'' she does not qualify for federal programs or 
services. She will not receive the trust protections and benefits she 
would have as a tribal member. She will not be able to live as an equal 
with her people. My child feels excluded from her own community. Yet, 
she still carries the responsibility of guarding and working to protect 
the Tigua way of life through her active participation in traditional 
ceremonies. She is wise for her age and recognizes that she needs to 
take care of what matters most, protecting and continuing the Tigua 
culture so that the Tigua will not cease to exist. She participates in 
all traditional events and everyone in our small community knows that 
she is my daughter and comes from a long line of Tigua leaders, elders, 
and ancestors. To the Pueblo, she is a Tigua. She is a tribal member.
    I fear that the mixed messages my daughter receives will be 
detrimental to her realizing her dreams as a Tigua adult. The burden of 
an eight year old being acknowledged by her family and community as a 
Tigua, but our government telling her she cannot be a member of our 
tribe is unfair and detrimental to her health, welfare and security. It 
is a ``label'' that is detrimental to all Tigua children in this 
situation, the stigma that they don't really belong. Throughout our 
community there are mothers and children who share my story.
    The blood quantum requirement raises countless issues. It divides 
us as a people and is just another way that we as Native Americans are 
discriminated against, in general and this time among ourselves. There 
is no other race where individuals are asked how pure their blood is. 
So as a mother, a Tigua, and also a descendant of those Tiguas that 
came before, I ask that you understand and acknowledge our sovereignty, 
our legacy, and the devastation the blood quantum limitation is 
inflicting on our community. But, most importantly I ask you to help to 
preserve a culture and a community.

                               Exhibit B
                                                  September 9, 2011
Hon. Doc Hastings,
Chairman,
Committee on Natural Resources,
U.S. House of Representatives,
Washington, DC.

Dear Mr. Chairman:

    The Congressional Budget Office has prepared the enclosed cost 
estimate for H.R. 1560, a bill to amend the Ysleta del Sur Pueblo and 
Alabama and Coushatta Indian Tribes of Texas Restoration Act to allow 
the Ysleta del Sur Pueblo Tribe to determine blood quantum requirement 
for membership in that tribe.
    If you wish further details on this estimate, we will be pleased to 
provide them. The CBO staff contacts are Martin von Gnechten (for 
programs of the Bureau of Indian Affairs) and Robert Stewart (for 
programs of the Indian Health Service).
        Sincerely,
                                      Douglas W. Elmendorf.

    Attachment

Congressional Budget Office Cost Estimate
    H.R. 1560 would amend the Ysleta del Sur Pueblo and Alabama and 
Coushatta Indian Tribes of Texas Restoration Act to eliminate the 
requirement that individuals have a blood quantum level of at least 
one-eighth to qualify for tribal membership. This legislation would 
allow the Ysleta del Sur Pueblo tribe to establish its own blood 
quantum requirement for determining membership.
    Based on information from the Department of the Interior, the 
Indian Health Service, and members of the Ysleta del Sur Pueblo tribe, 
CBO estimates that implementing H.R. 1560 would have no significant 
impact on the federal budget. Federal agencies currently provide 
services to all of the Ysleta del Sur Pueblo Indians who would become 
tribal members under H.R. 1560 because those agencies do not restrict 
services based on tribal membership established under the Ysleta del 
Sur Pueblo and Alabama and Coushatta Indian Tribes of Texas Restoration 
Act. Enacting the legislation would not affect direct spending or 
revenues; therefore, pay-as-you-go procedures do not apply.
    H.R. 1560 contains no intergovernmental or private-sector mandates 
as defined in the Unfunded Mandates Reform Act and would impose no 
costs on state, local, or tribal governments. Enacting this legislation 
would benefit the Ysleta del Sur Pueblo tribe.
    The CBO staff contacts for this estimate are Martin von Gnechten 
(for Bureau of Indian Affairs programs) and Robert Stewart (for Indian 
Health Service programs). This estimate was approved by Peter H. 
Fontaine, Assistant Director for Budget Analysis.

    Senator Akaka. Thank you very much, Lieutenant Governor, 
for your testimony.
    Mr. Hansen, how will transferring of this property in this 
bill allow the Association more security and flexibility at 
your facility and improve services of Tribal members?
    Mr. Hansen. As I mentioned, there are a couple of 
inadequacies. One of the things that we are facing now, we 
moved into the new Maniilaq Health Center in 1995, so 17 years 
later a lot of the equipment is nearing the end of its useful 
life. We are having to do some major equipment replacements. 
Also, the facility is needing to be renovated and some changes 
made to the facility.
    We would like to be able to finance some of those equipment 
purchases, which is standard in the industry. But with the 
reversionary clauses that exist, it frankly raises eyebrows 
from the financial institutions in terms of allowing us to use 
that asset to borrow money against.
    Additionally, we are working on and looking at some tax 
credit programs to expand some of our facilities and again, 
having more security for that property through a warranty deed, 
that would allow us to do that.
    Senator Akaka. Lieutenant Governor Hisa, can you describe 
what impact the passage of H.R. 1560 would have on the Tribal 
membership of the Ysleta del Sur Pueblo?
    Mr. Hisa. It would be a positive impact for our community. 
We have a large number of descendants and it continues to grow. 
And we do provide services for our community, both federally 
funded and services that are funded by the Tribal Council from 
revenues that we generate from our business or whatever.
    But we cannot extend those services, like we do to the 
Tribal members have full services, so the impact would be just 
tremendous in helping everybody in parity with the same 
services that are available.
    Senator Akaka. Ms. Hernandez, we have a photo here of your 
daughter who is now eight.
    Ms. Hernandez. Yes.
    Senator Akaka. And in your testimony you note that this 
beautiful young girl is not able to be enrolled as a member in 
the Pueblo because of the restrictions in the settlement 
agreement. This has led her to believe she is not Indian 
enough.
    Ms. Hernandez. Correct.
    Senator Akaka. Can you describe the impact that has had on 
your daughter? But, before you do that, if you have any 
comments you would like to make before you answer the question, 
we certainly would want to hear you.
    Ms. Hernandez. First of all, good afternoon Chairman and 
Honorable Members of the Senate Committee on Indian Affairs. I 
really appreciate the opportunity to tell the story of my 
daughter and of our family and of our Pueblo and how this 
Restoration Act blood quantum limitations has had an effect, 
especially on my daughter. The rest of our family are 
considered Tribal members and my daughter is the only one who 
is excluded. She does not meet the minimum blood quantum of 
one-eighth. So she is not a registered member of the Tribe. But 
she is a member of our Tribe. She participates in every way. 
She is always there but she is not sure of who she is because 
she gets two messages. She knows she is a Tribal member because 
our community lets her know that she is a part of us and yet 
she cannot receive the same benefits as a Tribal member.
    And that is where, my daughter has come home crying because 
she does not understand. She knows it is not fair. Other kids 
make fun of her because they say she should not be with us and 
the community because she is not a Tribal member, she is a 
descendant. And they make that distinction.
    Senator Akaka. As you tell me she feels that way, what 
determines that she is not a Tribal member?
    Ms. Hernandez. My blood quantum is three-sixteenths. So 
when I was in my first marriage, her father is not a Tribal 
member. So, she is three-thirty-seconds, which is less than 
one-eighth.
    Senator Akaka. Oh, I see.
    Ms. Hernandez. My two younger daughters, my current husband 
is a Tribal member, so my two younger daughters are considered 
one-fourth. So, they meet the minimum blood quantum. And my 
husband's children are also considered Tribal members. So, she 
is the only one from our family who is not a Tribal member 
because she does not meet the minimum one-eighth.
    Senator Akaka. Well, now coming back to the question, can 
you describe and you did, can you further describe the impact 
that this has made on your daughter.
    Ms. Hernandez. Other instances that my daughter has 
questioned her identity is, we have a library in our Tribe and 
on our reservation, and when she goes in she must sign in. And 
there are two different sign-in sheets. There is one for 
descendants and there is one for Tribal members. This is for 
funding purposes. Carlos can elaborate on that. But, there is 
that separation and she feels that separation and where she is 
distinguished that she is not a Tribal member and she is a 
descendant and she carries that with her. But she also carries 
the responsibility of being a Tribal member and participating 
and carrying on our traditions and our ways of life.
    Senator Akaka. Thank you. I would like to call now on 
Senator Tom Udall for his questions.
    Senator Udall. Chairman Akaka, thank you very much. And she 
really, Janette, she really looks like a lovely young lady and 
I am sure that you are very proud of her.
    First of all, let me just welcome the Governor, other 
Tribal officials and Lieutenant Governor on our panel today. It 
is good to have you here.
    I thought, I would ask about, to start with Janette and ask 
about this division this has caused within the family and 
within the Tribe. You know, we do not, in the United States, if 
you are an American nobody says you are this percentage 
American, that percentage of American. I imagine that that is, 
the best word is divisive. It sets up so that she signs in and 
she has to sign in differently. Could you describe the impact 
on her and the impact that you know of of any Tribal member? 
And I will also ask the Lieutenant Governor to comment on this 
after you finish.
    Ms. Hernandez. Our descendants feel very divided and 
separated from Tribal members because they are not considered 
Tribal members through the Federal regulations, the minimum of 
one-eighth. And my daughter, constantly knows that she is a 
Tribal member, that she carries that. She is my daughter. And 
she sees her sisters and her sisters who also participate. But 
yet her sisters can go in and sign in on a different sheet but 
she has to sign in on the other one.
    And that is detrimental to her. To her identity; she does 
not know who she is. She is only eight years old and that is a 
burden that an eight year old should not have. It does not 
matter her ethnicity. She is a Tribal member and she knows that 
in her heart, but she does not know that in her brain, in her 
head. She is only eight years old.
    Senator Udall. Yes, very damaging, I am sure. Lieutenant 
Governor, if you would like to comment on that question?
    Ms. Hisa. I sure will. Let me just elaborate on why there 
is a different sign in sheet. Again, because of Federal 
funding, we have reporting requirements and when our Tribal 
members visit our education center, whether it is to use a 
computer lab, for tutoring, they need to sign in on one sheet 
because that is the funding that we need to report on.
    We also ask descendants to sign in because, again, we want 
to keep track of our descendants. And, at the same time, when 
it comes to funding a program, Tribal Council goes through a 
budgeting process and we want to see the number of descendants 
taking advantage of these services so we can fund accordingly. 
So, that is the purpose. It is not with bad intent but it is 
something that is in place not only in our education center but 
in our wellness center and everywhere else because that is how 
we need to govern ourselves and operate to be able to keep 
count of what is going on.
    As Janette mentioned, there is a sense of separation 
between the youth. I also have three daughters and they are 
considered descendants and they are also asked to sign in on 
different sheets. But when it comes to our ceremonies or our 
way of life, nobody there questions their ethnicity, their 
blood, where they come from. And her daughter is always there. 
We accept her as part of the family, part of the community, as 
well as my daughters. But when they have to go to receive 
services, they do feel a little hesitant, in going, because of 
that sense of being less Indian than their relatives.
    So it is detrimental to the youth. My children are much 
older. Well, I have an eight year old as well. But I also have 
an 18 year old and a 14 year old, and they struggled through 
this to where, in our summer program, they decided not to 
participate because of that. They would not participate and 
they limited themselves in that way.
    And we do not want her daughter to go through that same 
thing and not be part of the community like the way we want 
them to be, the way we accept them. It is something that is not 
coming from us. It is just a label that has been put upon our 
youth by the Federal Government and nothing else. So, we are 
asking for that to be changed.
    Senator Udall. Lieutenant Governor, basically what you are 
saying is that this is very isolating to this young individual 
or others in the community.
    Mr. Hisa. Yes.
    Senator Udall. Now, are there, there is obviously her 
daughter and others in the community who do not meet the one-
eighth blood quantum requirement. Do you have an estimate of 
how many?
    Mr. Hisa. It is approximately over 500.
    Senator Udall. Okay.
    Mr. Hisa. We are still getting, since the bill started 
moving, we have asked parents to bring their children, the 
information, so we can start, just about a year ago we started 
issuing out descendant cards so we can start just getting a 
true number. So it has over 500 members right now.
    Senator Udall. And how does the Pueblo handle providing 
services for members of your Tribe who do not officially, are 
not officially enrolled because of the one-eighth blood quantum 
requirement? How do you handle that?
    Mr. Hisa. We, through revenues that the Pueblo generates 
through its operations and businesses, find a way to go ahead 
and try to provide the same level of service to descendants. It 
is just a funding issue that really separates it.
    So, we are not asking the Federal Government for additional 
money. We have managed to operate our programs successfully. 
So, we are just asking for this identity of non-Tribal 
descendants to be taken away and eliminated.
    Senator Udall. Can you describe for the Committee what H.R. 
1560 would mean for the Ysleta del Sur Pueblo's capacity for 
self-governance and self-determination?
    Mr. Hisa. Yes. We are a sovereign nation. We consider 
ourselves a sovereign nation. We do have government 
relationships with the State of Texas, the City of El Paso, the 
County of El Paso, the Federal Government as well. So, this is 
just something in addition to what we believe in. We need to be 
able to govern our people, provide a safe environment and 
welfare for our community, no matter if they are descendants, 
one-eighth, full-blooded, we all look at our Tribal membership 
as being equal and we want to be able to treat everybody the 
same.
    Senator Udall. Now, would you expect that H.R. 1560 would 
result in any major additional costs? I know the issue you 
raised in your testimony. In my understanding, the 
Congressional Budget Office, as far as the cost to the agency, 
has issued a zero finding now.
    Mr. Hisa. It will not be an additional cost to the Federal 
Government and if it is an increase in cost to the Pueblo it is 
going to be a minimal one because we do provide for our 
descendants as well. So once I have a feeling that once this 
passes and that limitation is taken away, we will have more 
people come and register their children freely. It might be an 
increase in the cost but it is not going to be much because, 
like I said, we do provide services to our descendants as we 
speak.
    Senator Udall. Thank you. And I thank the whole panel today 
for your testimony and I would yield back to the Chairman. 
Thank you.
    Senator Akaka. Thank you very much, Senator Udall. We, the 
Committee, will certainly consider these bills. But I want to 
again thank you so much for your being here and your responses. 
It will help us in dealing with these bills.
    I know the Tribal witnesses traveled far to be with us 
today. Your testimony makes it clear how important those pieces 
of legislation are for your Tribes and your members.
    I look forward to working with my colleagues on the 
Committee to move these bills through the Committee and to this 
Senate and so we will be, as a Committee, working on this now 
that we have had the hearing and we have heard from you.
    So, mahalo, thank you very much for your participation in 
this hearing.
    This hearing is adjourned.
    [Whereupon, at 3:21 p.m., the Committee was adjourned.]

                                  <all>

</pre></body></html>
